No. 20-5750
IN THE SUPREME COURT OF THE UNITED STATES
CHESTER STAPLES,
Petitioner,
V.
BOBBY LUMPKIN,
Respondent,

CERTIFICATE OF GOOD FAITH
Comes now Petitioner, Chester Staples, and makes certification
that his petition for rehearing is presented to this Court in
good faith pursuant to Rule 44. I, Chester Staples, further states
the following:
This Court entered its judgment denying me a Writ of Certiorari
on November 16,2020. I believe that I have presented to this
Court adequate grounds to justify the granting of rehearing in
this case and said petirion is brought in good faith and not
for delay.
I believe that under the laws of our Country and the Constitution
in support that I am entitled to 'some' relief.
I declare under the penalty of perjury that the foregoing
is true and correct.

Certification of party unrepresented by counsel
I, Chester Staples, declare under the penalty of perjury that I am
unrepresented by counsel and that I am litigating pro se,

Additional material
from this filing is
available in the
Clerk's Office.

